   DEPARTMENT OF HEALTH AND HUMAN SERVICES                                       Office of Inspector General

                                                                                 Office of Audit Services
                                                                                 1100 Commerce, Room 632
                                                                                 Dallas, Texas 75242


                                                                      March 13, 2009
Report Number: A-06-08-00006

Mr. Albert Hawkins
Executive Commissioner
Texas Health and Human Services Commission
P.O. Box 13247
Austin, Texas 78711

Dear Mr. Hawkins:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Texas Medicaid Payments for Medicare
Coinsurance of Dual-Eligible Beneficiaries in Skilled Nursing Facilities.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Warren Lundy, Audit Manager, at (405) 605-6183 or through e-mail at
Warren.Lundy@oig.hhs.gov. Please refer to report number A-06-08-00006 in all
correspondence.

                                                  Sincerely,



                                                  Gordon L. Sato
                                                  Regional Inspector General
                                                   for Audit Services


Enclosure
Page 2 – Mr. Albert Hawkins


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF TEXAS MEDICAID 

   PAYMENTS FOR MEDICARE 

    COINSURANCE OF DUAL-
   ELIGIBLE BENEFICIARIES IN 

  SKILLED NURSING FACILITIES 





                    Daniel R. Levinson

                     Inspector General 


                      (March 2009) 

                      A-06-08-00006

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
age 65 and over and those who are disabled or have permanent kidney disease. Medicare Part A
(hospital insurance) helps cover inpatient care, including up to 100 days in skilled nursing
facilities (SNF) for posthospital extended care. Medicare pays the full cost for the first 20 days
of a qualified SNF stay but requires a coinsurance payment beginning on the 21st day and
continuing through the 100th day. Medicaid pays all or part of the Medicare coinsurance for
beneficiaries eligible for both Medicare and Medicaid (dual-eligible beneficiaries), depending on
their income. Dual-eligible beneficiaries have Medicare coverage and are also eligible for
Medicaid because they have either (1) limited income and resources or (2) high medical
expenses that have caused them to spend down their income to Medicaid eligibility limits.

The Texas Health and Human Services Commission (the State agency) administers the Medicaid
program for the State of Texas. For dual-eligible beneficiaries, the State requires that the
number of coinsurance days authorized by the Medicare claim match the number of coinsurance
days paid by Medicaid.

In an effort to identify and recover improper coinsurance payments, the State agency entered into
a cooperative agreement with the Centers for Medicare & Medicaid (CMS) and TriCenturion, the
program safeguard contractor (PSC) for Texas. Under the agreement, the PSC generates a
quarterly exception report from a comparison of the number of coinsurance days authorized on
Medicare SNF claims to the number of coinsurance days paid on Medicaid coinsurance claims
for the same individual, provider, and common span of service dates. An exception is a potential
overpayment that occurs because the coinsurance days for which Medicaid pays differ from the
days for which Medicare authorizes payment.

The report sometimes identifies an exception for which the State has made a coinsurance
payment for incorrect dates but the correct number of days; other exceptions occur because of
missing documentation. Because not every exception represents an improper Medicaid
coinsurance payment, the State agency researches claims identified in the exception report to
determine whether Medicaid coinsurance payments should be recouped. According to a State
agency official, the agency did not have sufficient staff to research all exceptions and generally
prioritized and reviewed first those exceptions with the greatest differences between the number
of days Medicare authorized and the number of days billed to Medicaid.




                                                 i
OBJECTIVE

Our objective was to determine whether Medicaid payments made for Medicare coinsurance
were proper and, if not, whether the State agency recovered the improper payments.

SUMMARY OF FINDINGS

The State agency made but did not recover $33,809 ($20,551 Federal share) in improper
Medicaid coinsurance payments for 54 of the 100 exceptions in our sample. The State agency
made proper payments for 46 exceptions. Based on our sample, we estimate that the State
agency, prior to the start of our audit, made but did not recover at least $119,580 ($72,668
Federal share) in improper Medicaid coinsurance payments. The improper payments were made
because SNF providers submitted inaccurate coinsurance claims and because the State agency
misinterpreted Medicare policy related to the date of death of SNF patients. During our audit,
the State agency hired additional staff to review exceptions and recovered from SNF providers
$28,876 ($17,547 Federal share) in improper payments for 28 of the 54 exceptions in our sample.

RECOMMENDATIONS

We recommend that the State agency:

    •	 refund the $72,668 Federal share of Medicare coinsurance payments to the Federal
       Government and

    •	 continue to research all exceptions to determine whether additional collections are
       warranted.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with both of our
recommendations and described its plan of action. The State agency added comments related to
recoveries made prior to the start of our audit (but not identified until after selection of our
sample), suggesting that our estimate of improper payments may be slightly in error.
Additionally, the State agency updated the amount of recoveries it has made and commented on
its improved procedures for the payment of coinsurance. The full text of the State agency’s
comments is included as Appendix C.

We did not adjust our estimate of improper payments because our methodology was correct for
the sampling frame that was available when we selected our statistical sample, and the State
agency agreed to refund the Federal share of our estimate.




                                               ii
                                                   TABLE OF CONTENTS 


                                                                                                                                 Page


INTRODUCTION................................................................................................................. 1 


     BACKGROUND .............................................................................................................. 1 

       Medicaid and Medicare Eligibility ............................................................................. 1 

       Medicaid Coinsurance Payments................................................................................ 1           

       Quarterly Exception Reports ...................................................................................... 1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2 

       Objective ..................................................................................................................... 2

       Scope........................................................................................................................... 2 

       Methodology ............................................................................................................... 3        


FINDINGS AND RECOMMENDATIONS ....................................................................... 3 


     SUBMISSION OF INACCURATE CLAIMS ................................................................. 3 


     MISINTERPRETATION OF MEDICARE POLICY ...................................................... 4 


     RECOVERY OF OVERPAYMENTS DURING OUR AUDIT ...................................... 4 


RECOMMENDATIONS...................................................................................................... 5 


     STATE AGENCY COMMENTS .................................................................................... 5 


     OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 5 


APPENDIXES

     A – SAMPLE DESIGN AND METHODOLOGY

     B – SAMPLE RESULTS AND ESTIMATES

     C – STATE AGENCY COMMENTS




                                                                     iii
                                       INTRODUCTION 


BACKGROUND

Medicaid and Medicare Eligibility

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
age 65 and over and those who are disabled or have permanent kidney disease. Medicare Part A
(hospital insurance) helps cover inpatient care, including up to 100 days in skilled nursing
facilities (SNF) for posthospital extended care. An SNF is an institution or a distinct part of an
institution, such as a skilled nursing home or rehabilitation center, which primarily provides
skilled nursing care and related services. Medicare pays the full cost for the first 20 days of a
qualified SNF stay but requires a coinsurance payment beginning on the 21st day and continuing
through the 100th day. Medicaid pays all or part of the Medicare coinsurance for beneficiaries
eligible for both Medicare and Medicaid (dual-eligible beneficiaries), depending on their income.
Dual-eligible beneficiaries have Medicare coverage and are also eligible for Medicaid because
they have either (1) limited income and resources or (2) high medical expenses that have caused
them to spend down their income to Medicaid eligibility limits.

Medicaid Coinsurance Payments

The Texas Health and Human Services Commission (the State agency) administers the Medicaid
program for the State of Texas. For dual-eligible beneficiaries, the State agency requires that the
number of coinsurance days authorized by the Medicare claim match the number of coinsurance
days paid by Medicaid. The State agency requires SNFs to submit the “Medicare/Skilled
Nursing Facility Patient Transaction Notice” (Form 3619) to obtain payment for coinsurance
related to Medicare SNF services. The Texas “Medicaid Provider Manual for Long-term Care
Facilities,” effective January 1, 2005, and “Information Letter No. 06-25,” dated March 13,
2006, instructed SNFs to submit Form 3619 on or after the 21st day of a qualified stay. To stop
coinsurance payments, SNFs must submit another Form 3619 to notify the State agency of a
beneficiary’s discharge date. Using this process, providers do not have to wait for adjudication
of a Medicare SNF claim to seek Medicaid reimbursement for coinsurance. As a result, SNFs
receive coinsurance payments on a more timely basis.

Quarterly Exception Reports

In an effort to identify and recover improper coinsurance payments, the State agency entered into
a cooperative agreement with the Centers for Medicare & Medicaid Services (CMS) and
TriCenturion, the program safeguard contractor (PSC) for Texas. Under the agreement, the PSC


                                                 1

generates a quarterly exception report from a comparison of the number of coinsurance days
authorized on Medicare SNF claims to the number of coinsurance days paid on Medicaid
coinsurance claims for the same individual, provider, and common span of service dates. An
exception is a potential overpayment that occurs because the coinsurance days for which
Medicaid pays differ from the days included on Medicare claims. An exception may include
several claims for a beneficiary’s period of illness.

The report sometimes identifies an exception for which the State has made a coinsurance
payment for incorrect dates but the correct number of days; other exceptions occur because of
missing documentation. Because not every exception represents an improper Medicaid
coinsurance payment, the State agency researches claims identified in the exception report to
determine whether Medicaid coinsurance payments should be recouped. According to a State
agency official, the State agency did not have sufficient staff to research all exceptions and
generally prioritized and reviewed first those exceptions with the greatest differences between
the number of days billed on Medicare claims and the number of days Medicaid paid for the
same beneficiary. Before we started our audit, the State agency had researched and recovered
Medicaid coinsurance payments for 532 of the 1,471 exceptions identified for the first three
quarters of calendar year 2005. During our audit, the State agency received the fourth quarter
2005 report and provided us with a list of exceptions that it did not intend to review.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid payments made for Medicare coinsurance
were proper and, if not, whether the State agency recovered the improper payments.

Scope

For calendar year 2005, we identified 802 exceptions with Medicaid payments totaling
$2,518,292. Our review included only PSC-identified exceptions that involved (1) claims that
the State had not reviewed and did not intend to review and (2) providers that had an active
Medicaid contract with the State agency at the time of our review. We reviewed a stratified
random sample of 100 exceptions totaling $359,423.

We limited our review of internal controls to obtaining an understanding of the State agency’s
policies and procedures for identifying and recovering potential overpayments of coinsurance for
dual-eligible beneficiaries.

We conducted our fieldwork at the State agency in Austin, Texas, from October 2007 through
October 2008.




                                                2

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal and State requirements;

   •	 held discussions with State agency officials to ascertain the agency’s policies and 

      procedures for identifying and recovering improper Medicaid payments; 


   •	 obtained from the State 802 exceptions from calendar year 2005 quarterly exception
      reports;

   •	 used stratified random sampling, as detailed in Appendix A, to select 100 exceptions
      from the sampling frame;

   •	 contacted the SNFs in our sample and obtained patient data and Medicare remittance
      advices; and

   •	 determined whether the exceptions were actually improper payments and calculated the
      Federal share of those amounts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATONS

The State agency made but did not recover $33,809 ($20,551 Federal share) in improper
Medicaid coinsurance payments for 54 of the 100 exceptions in our sample. The State agency
made proper payments for 46 exceptions. Based on our sample, we estimate that the State
agency, prior to the start of our audit, made but did not recover at least $119,580 ($72,668
Federal share) in improper Medicaid coinsurance payments. The improper payments were made
because SNF providers submitted inaccurate coinsurance claims and because the State agency
misinterpreted Medicare policy related to the date of death. During our audit the State agency
hired additional staff to review potential overpayments and recovered from SNF providers
$28,876 ($17,547 Federal share) of improper payments for 28 of the 54 exceptions in our
sample.

SUBMISSION OF INACCURATE CLAIMS

To ensure proper and efficient payment of Medicaid claims, section 1902(37)(B) of the Act
requires States to have claim payment procedures that provide for prepayment and postpayment
claims review, including review of appropriate data about providers, patients, and the nature of
the services for which payments are claimed.


                                                3

For 41 of the 54 exceptions that were actual Medicaid coinsurance overpayments, the SNFs
submitted inaccurate Forms 3619. The State agency relied on the Forms 3619 to authorize
coinsurance payments and did not require SNFs to submit a corresponding Medicare remittance
advice.1 SNFs that submitted inaccurate Forms 3619 either provided us with remittance advices
that did not support their claims for coinsurance or did not have corresponding Medicare
remittance advices. The following three examples illustrate the problems:

    •	 For one exception, the State agency paid $3,651 for 35 days of coinsurance for services
       provided from April 1 to May 5, 2005. The SNF did not provide a remittance advice
       corresponding to 12 days of coinsurance, from April 1 to 12. As a result, the State
       improperly paid $1,251 for the 12 days.

    •	 For another exception, the State agency paid $1,085 for 12 days of coinsurance. The
       SNF claimed coinsurance from July 29 to August 9, 2005, but the remittance advice did
       not authorize any coinsurance during that period.

    •	 For a third exception, the State agency paid $7,342 for 77 days of coinsurance for
       services provided from April 15 to June 30, 2005. The corresponding Medicare claim for
       services from April 15 to 29 did not authorize any coinsurance days. There were no
       Medicare claims or remittance advices for services provided from April 30 to June 30.
       As a result, the State improperly paid $7,342 for 77 days of coinsurance.

The improper Medicaid payments for Medicare coinsurance for these 41 exceptions totaled
$32,558 ($19,790 Federal share).

MISINTERPRETATION OF MEDICARE POLICY

CMS “Medicare Benefit Policy Manual,” chapter 3, section 20.1, provides that the number of
days of care charged to a beneficiary for SNF care services is always in units of full days. The
day of death is not counted as a billable day unless death occurs on the date of admission.

For the 13 remaining improper Medicaid coinsurance payments, the State agency paid Medicare
coinsurance for days on which beneficiaries had died because it had misinterpreted CMS
guidance. In 2006, the State agency issued guidance to SNFs that was in accordance with
Medicare requirements and stopped paying coinsurance for the day of death.

The improper Medicaid coinsurance payments for these 13 exceptions totaled $1,251 ($761
Federal share).

RECOVERY OF OVERPAYMENTS DURING OUR AUDIT

After the State agency provided the records of exceptions used for our sampling frame, it hired
additional staff to review exceptions. As a result, the State agency reviewed additional claims
1
 A remittance advice is a notice of payments and adjustments that Medicare contractors send to billers, providers,
and suppliers to explain reimbursement decisions for processed claims.


                                                         4

and recovered from SNF providers $28,876 ($17,547 Federal share) for 28 of the 54 improper
coinsurance payments we identified in our sample. Because the State had not recovered these
payments at the start of our audit, we included these overpayments in the estimates based on our
statistical sample. In addition, the State recovered $66,757 ($40,514 Federal share) for 126 of
the remaining 702 exceptions in our sampling frame.

RECOMMENDATIONS

We recommend that the State:

    •	 refund the $72,668 Federal share of Medicare coinsurance payments to the Federal
       Government and

    •	 continue to research all exceptions to determine whether additional collections are
       warranted.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with both of our
recommendations and described its plan of action. The State agency also commented that:

   •	 Our estimate of improper payments may be slightly in error because $3,446.31 for 7 of
      the 54 improper payments identified in our statistical sample was recovered before we
      began our audit.

   •	 As of February 1, 2009, the State agency had recovered $33,343 for 46 of the 54 

      improper payments in our sample. 


   •	 The State agency improved controls over the payment of coinsurance by requiring that
      providers report the 20 days of a qualifying stay paid in full by Medicare as part of the
      authorization process for payment of coinsurance.

The full text of the State agency’s comments is included as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We believe that our estimate of improper payments is accurate. The sampling frame from which
we selected our statistical sample consisted of data presented by the State agency as unrecovered
payments. Though the data in our sample included improper payments recovered before we
began the audit, the State did not identify the improper payments as recovered until after we had
selected our sample. We did not adjust our estimate of improper payments because our
methodology was correct for the sampling frame that was available when we selected our
statistical sample, and the State agency agreed to refund the Federal share of our estimate.

We commend the State agency for recovering additional improper payments and for improving
the process of authorizing coinsurance payments.


                                                5

APPENDIXES 

                                                                                  APPENDIX A
                                                                                    Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was potential overpayments (exceptions) made by the Texas Health and Human
Services Commission (the State agency) to skilled nursing facilities for Medicare coinsurance
payments during calendar year 2005. An exception occurred when the State agency potentially
made a Medicaid coinsurance payment for days that exceeded the number of days for which
Medicare paid.

SAMPLING FRAME

The sampling frame was a spreadsheet listing of 802 exceptions by beneficiary with payments
totaling $2,518,292 for services in calendar year 2005.

SAMPLE UNIT

The sample unit was an exception for Medicare coinsurance that the State agency did not or
would not pursue.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sample by the difference between the
number of coinsurance days authorized by Medicare and the number of coinsurance days paid by
Medicaid:

   •   stratum one: 481 exceptions with a 1-day difference, totaling $1,265,057;
   •   stratum two: 156 exceptions with differences of 2 to 11 days, totaling $527,012; and
   •   stratum three: 165 exceptions with differences of 12 to 77 days, totaling $726,223.

SAMPLE SIZE

We randomly selected a sample of 100 exceptions: 34 from stratum one and 33 each from
stratums two and three.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, RAT-STATS statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We sorted the sample units within each stratum by the “days difference” field and by the “client
ID” field. We then numbered each sample unit sequentially, starting with one for each stratum.
                                                                              APPENDIX A
                                                                                Page 2 of 2

We generated 100 random numbers (34 for stratum one and 33 each for stratums two and three)
and selected the corresponding sample unit from each stratum.

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the amount of improper payments based on the dollar value of
sample units determined to be improper payments. We reported the estimate of improper
payments using the “difference estimator” at the lower limit of the 90-percent two-sided
confidence interval.
                                                                        APPENDIX B


                       SAMPLE RESULTS AND ESTIMATES

The results of our review are as follows:

                                                            Number of      Value of
           Frame       Value of     Sample    Value of      Improper      Improper
Stratum     Size        Frame        Size      Sample       Payments      Payments
1           481       $1,265,057       34      $86,873         25           $2,048
2           156          527,012       33      122,820         17            5,828
3           165          726,223       33      149,730         12           25,933
  Total     802       $2,518,292      100     $359,423         54          $33,809

The estimates of improper payments and Federal share are as follows:

                                       Estimated Estimated
                                       Improper Federal
                                       Payments    Share
                        Point Estimate $186,191  $113,168
                        Lower Limit     119,580     72,668
                        Upper Limit     252,802   153,669
APPENDIX C
  Page 1 of 3 

APPENDIX C
  Page 2 of 3 

APPENDIX C
  Page 3 of 3 

